                                                                Issue Date
                                                                         November 8, 2007
                                                                Audit Report Number
                                                                        2008-AT-1001




TO:         Olga I. Saez, Director, Public and Indian Housing, San Juan Field Office, 4NPH



FROM:       James D. McKay, Regional Inspector General for Audit, 4AGA

SUBJECT: The Municipality of Ponce, PR, Needs to Improve Controls over Its Section 8
         Program

                                   HIGHLIGHTS
 What We Audited and Why

             As part of the U.S. Department of Housing and Urban Development (HUD),
             Office of the Inspector General’s (OIG) strategic plan, we audited the
             Municipality of Ponce (authority) Section 8 Housing Choice Voucher program.
             The authority was selected for review based on a risk assessment. Our audit
             objectives were to determine whether Section 8 units met housing quality
             standards in accordance with HUD requirements and whether the authority
             properly paid program landlords and properly determined housing assistance
             subsidies.

 What We Found


             Of the 54 units inspected, 39 (72 percent) did not meet minimum housing quality
             standards, and 12 of those were in material noncompliance. The authority also
             failed to ensure that annual housing quality inspections were performed in a
             timely manner. As a result, Section 8 program funds were not used to provide
             units that were decent, safe, and sanitary; and the authority made housing
             assistance payments for units that did not meet standards. We estimate that over
             the next year, the authority will disburse housing assistance payments of more
             than $190,000 for units in material noncompliance with housing quality standards
             if it does not implement adequate controls.

  Table of Contents
           The authority did not pay program landlords in a timely manner. As a result, it
           owed landlords more than $185,000 in rental payments. The authority also did
           not apply utility allowances for tenant-supplied appliances. We estimate that over
           the next year, the authority will underpay more than $71,000 in housing assistance
           and/or utility allowance disbursements if it does not implement adequate
           procedures regarding its utility allowance policy.

           We informed the authority’s housing director and the Director of HUD’s San Juan
           Office of Public Housing of other minor deficiencies through a separate
           memorandum.

What We Recommend


           We recommend that the Director of the Office of Public Housing require the
           authority to inspect all of the 39 units that did not meet minimum housing quality
           standards to verify that the landlords took appropriate corrective actions to make
           the units decent, safe, and sanitary. If appropriate actions were not taken, the
           authority should abate the rents or terminate the tenants’ vouchers. The Director
           should also require the authority to establish and implement adequate procedures
           and controls to prevent $190,080 from being spent on units with material housing
           quality standards violations and for the timely disbursement of more than
           $185,000 in back payments to landlords. We also recommend that the Director
           require the authority to develop a utility allowance schedule that complies with
           program requirements and appropriately recognizes the costs of tenant-supplied
           appliances to ensure that $71,232 in program funds is used in accordance with
           HUD requirements.

           For each recommendation without a management decision, please respond and
           provide status reports in accordance with HUD Handbook 2000.06, REV-3.
           Please furnish us copies of any correspondence or directives issued because of the
           audit.

Auditee’s Response


           We discussed the findings with the authority and HUD officials during the audit.
           We provided a copy of the draft report to authority officials on October 12, 2007,
           for their comments and discussed the report with the officials at the exit
           conference on October 18, 2007. The authority provided its written comments to
           our draft report on November 6, 2007. In its response, the authority generally
           agreed with the findings.

           The complete text of the authority’s response, along with our evaluation of that
           response, can be found in appendix B of this report.



Table of Contents
                                            2
                             TABLE OF CONTENTS

Background and Objectives                                                             4

Results of Audit
        Finding 1: Controls over Housing Quality Standards Were Inadequate            5
        Finding 2: Controls over Housing Assistance Payments and Utility Allowances   11
                   Were Inadequate

Scope and Methodology                                                                 14

Internal Controls                                                                     17

Appendixes
   A.   Schedule of Funds to Be Put to Better Use                                     19
   B.   Auditee Comments                                                              20
   C.   Criteria                                                                      24
   D.   Schedule of Units in Material Noncompliance with Housing Quality              25
        Standards




                                             3
                     BACKGROUND AND OBJECTIVES

The Municipality of Ponce (authority) was founded in 1692 and its government system consists
of an executive and legislative body; a mayor and sixteen members of the municipal legislature
elected for a four-year term. The municipal government provides a full range of services,
including public health and safety, community development, education and other.

The authority administers approximately 1,400 housing choice vouchers in Ponce, Puerto Rico.
The authority uses its Section 8 voucher funds to provide rental assistance to eligible families.
From July 1, 2006, through June 30, 2007, the U.S. Department of Housing and Urban
Development (HUD) authorized and disbursed $15 million to the authority in Section 8 program
voucher funds. The authority’s housing department was assigned the responsibility of
administering the Section 8 program. The authority’s records for the Section 8 program are
maintained at Concordia Avenue, Ponce, Puerto Rico.

The objectives of our audit were to determine whether the authority’s Section 8 units met
housing quality standards in accordance with HUD requirements and whether the authority
properly paid program landlords and properly determined housing assistance subsidies.




 Table of Contents


                                                4
                                RESULTS OF AUDIT

Finding 1: Controls over Housing Quality Standards Were Inadequate
The authority did not adequately enforce HUD’s housing quality standards. Of the 54 units
inspected, 39 (72 percent) did not meet minimum housing quality standards, and 12 were in
material noncompliance. This noncompliance occurred because the authority’s management did
not implement adequate internal controls over its inspection process to ensure that inspections
complied with requirements. It also failed to ensure that annual housing quality inspections were
performed in a timely manner. As a result, Section 8 program funds were not used to provide
units that were decent, safe, and sanitary; and the authority made housing assistance payments
for units that did not meet standards. Based on the sample, we estimate that over the next year,
the authority will disburse housing assistance payments of more than $190,000 for units in
material noncompliance with housing quality standards if it does implement adequate controls.




 Health and Safety Hazards
 Were Predominant


              From the authority’s 261 program units that passed inspection between January
              and April 2007, we statistically selected 54 units for inspection. The 54 units
              were inspected to determine whether the authority ensured that its program units
              met housing quality standards. Of the 54 units, 39 (72 percent) had 200 housing
              quality standards violations. The following table lists the most frequently
              occurring violations for the 39 units.
                                                       Number of      Number Percentage
                         Type of deficiency            deficiencies   of units of units
               Illumination and electrical                 128           37       69
               Structure and materials                      37           22       41
               Water supply                                 12           11       20
               Food preparation and refuse disposal         6             6       11
               Smoke detector                               4             4        7

              Additionally, 12 of the 39 failed units were in material noncompliance with
              housing quality standards. Appendix D provides details on the 12 units.

              The most predominant deficiencies were electrical hazards, including exposed
              wiring, missing outlet covers, improper wiring of water heaters, and unshielded
              electrical wires. The following pictures show some of these deficiencies.


    Table of Contents
                                               5
           Main electrical connection resting above metal roof and
           within reach, creating an electrical shock hazard. The
           deficiency was not reported by the authority during its
           January 11, 2007, inspection.




           Breaker panel with no internal cover and with exposed
           electrical contacts, creating an electrical shock hazard. The
           deficiency was not reported by the authority during its
           February 26, 2007, inspection.




Table of Contents


                                         6
            Improper wiring of water heater with exposed wire
            connections, creating an electrical shock hazard. In
            addition, the pressure relief valve had no discharge pipe.
            The deficiencies were not reported by the authority during
            its April 10, 2007, inspection.




            Bedroom light fixture improperly wired. This deficiency
            was not reported by the authority during its March 9, 2007,
            inspection.




Table of Contents

                                         7
           We found 92 deficiencies that existed at the time of the authority’s most recent
           inspection, but the inspectors did not identify or did not report them. Improper
           water heater and electrical installations were some of the deficiencies not reported
           by inspectors. Authority inspectors attributed some of the deficient inspections to
           oversight or their unfamiliarity with HUD requirements. As a result, authority
           inspectors improperly passed units that did not meet the required standards.

           We provided our inspection results to the authority’s Section 8 director, who
           agreed to notify tenants and owners and ensure that violations were corrected.

Annual Inspections Not
Performed in a Timely Manner


           The authority is required by HUD and its administrative plan to inspect Section 8
           units at least once a year to ensure that the properties meet minimum conditions
           for compliance with standards. HUD requirements and the authority’s
           administrative plan provide minimum conditions that must exist for a unit to be
           considered decent, safe, and sanitary. Each unit must meet minimum housing
           quality standards for the entire period of tenancy.

           The authority did not conduct required inspections in a timely manner. Federal
           regulations require the authority to inspect all leased units at least annually. It had
           not inspected 10 of the 54 units in our sample, 19 percent, within the prescribed
           time. These units experienced overdue inspections of up to 613 days, with the
           average being 143 days.

                                                         Number of days
                               File number           inspection was overdue
                                0387V-00                       613
                                1012V-93                       168
                                0517V-02                       156
                                0701V-02                       124
                                1334V-01                        80
                                0691V-88                        69
                                1088V-92                        64
                                0749V-85                        57
                                1003V-05                        50
                                0304V-90                        47

           As of June 29, 2007, the authority had a backlog of more than 170 units.
           Authority officials attributed the backlog to a personnel shortage and stated that
           additional resources had been assigned to correct the condition.



 Table of Contents

                                             8
             The authority’s quality control inspection process was also inadequate. While its
             administrative plan required at least annual quality control inspections, they were
             not performed during 2006. The authority failed to reinspect a sample of units
             that represent a cross-section of neighborhoods and inspectors as required by
             HUD. The quality control inspections provide feedback on inspectors’ work,
             which can be used to determine whether individual performance or housing
             standards training issues need to be addressed. The authority attributed this
             deficiency to a personnel shortage.


Conclusion



             Because the authority did not implement adequate internal controls, it made
             housing assistance payments for units that did not meet housing quality standards.
             The authority did not maintain adequate controls to ensure that inspections met
             HUD requirements. Management must emphasize the importance of housing
             quality standards and implement policies and procedures, which ensure that it
             complies with HUD requirements and gives tenants the opportunity to live in
             decent, safe, and sanitary conditions. We estimate that by making the necessary
             improvements, the authority will prevent more than $190,000 in Section 8 funds
             from being spent on units that are in material noncompliance with standards.


Recommendations



             We recommend that the Director of the Office of Public Housing

             1A.    Require the authority to inspect the 39 units that did not meet minimum
                    housing quality standards to verify that the owners took appropriate
                    corrective actions to make the units decent, safe, and sanitary. If
                    appropriate actions were not taken, the authority should abate the rents or
                    terminate the housing assistance payments contracts.

             1B.    Require the authority to implement internal controls, which ensures that
                    units are inspected in a timely manner and inspections meet HUD
                    requirements, to prevent $190,080 from being spent on units that are in
                    material noncompliance with standards.

             1C.    Require the authority to perform quality control inspections in accordance
                    with its administrative plan and HUD requirements, and document the
                    inspections and feedback provided to inspectors to correct recurring
                    inspection deficiencies noted.

  Table of Contents
                                              9
            1D.     Monitor the authority’s performance in the administration of its Section 8
                    Housing Choice Voucher program. If the authority fails to improve and
                    fulfill its administrative responsibilities, consider imposing sanctions in
                    accordance with 24 CFR [Code of Federal Regulations] 982.152(d).




Table of Contents


                                             10
Finding 2: Controls over Housing Assistance Payments and Utility
           Allowances Were Inadequate
The authority did not pay program landlords in a timely manner and did not apply appropriate
utility allowances for tenant-supplied appliances. These deficiencies occurred because the
authority did not have adequate controls in place to ensure that it made timely rental payments
and that its utility allowance schedule was in accordance with HUD requirements. As a result, it
owed landlords more than $185,000 in rental payments. In addition, we estimate that over the
next year, the authority will underpay more than $71,000 in housing assistance and/or utility
allowance disbursements if it does not implement adequate controls and procedures regarding its
utility allowance policy.



 Late Payments to Landlords


              The authority did not make rental payments to landlords in a timely manner and
              owed more than $185,000 in back payments. It suspended rental payments
              associated with 177 Section 8 units, while tenants still lived in the housing unit,
              because it was unable to complete the annual housing quality standards inspection
              and execute a new housing assistance contract with the landlords. The authority
              attributed the delayed inspections to a personnel shortage.

              As of June 2007, the authority owed more that $185,000 in back payments to
              program landlords. It had not made rental payments for 12 of the 177 Section 8
              units for at least six months.

                                      Number of months
                                      rental payment was        Amount owed to
                      File number           overdue               landlord
                      1322V                    10                   $2,670
                      F-194                    8                    $2,728
                      1215V                    7                    $3,710
                      055V                     7                    $3,591
                      1487V                    7                    $2,933
                      002V                     7                    $2,625
                      647V                     7                    $1,897
                      060V                     6                    $3,480
                      500V                     6                    $2,568
                      492V                     6                    $2,418
                      097V                     6                    $2,190
                      593V                     6                    $1,764


 Table of Contents
                                               11
             The authority’s inadequate management controls and inability to fulfill its
             administrative responsibility for its Section 8 program could create an
             unnecessary burden for the landlords and adversely affect program objectives.


Deficient Utility Allowance
Schedule


             HUD requires the authority to maintain a utility allowance schedule for all tenant-
             paid utilities, for the cost of tenant-supplied refrigerators and ranges, and for other
             tenant-paid housing services. The authority’s utility allowance schedule was not
             in compliance with program requirements. The schedule did not offer a utility
             allowance for tenant-supplied refrigerators and ranges. The authority did not
             explain why the schedule did not include an allowance for tenant-supplied
             appliances.

             Authority records showed that the authority had 423 tenants who provided their
             own appliances, but it did not provide an allowance when it determined the
             housing assistance. We recalculated the housing assistance for these tenants to
             determine the possible effect on the Section 8 program if the authority had
             provided a utility allowance for tenant-supplied appliances. To recalculate the
             housing assistance, we used the utility allowance that applied based on the
             appliances provided by the tenants. We used the utility allowance schedule of
             another housing agency that also had Section 8 units within the same geographical
             location as the authority. Our analysis showed that 300 of the 423 tenants
             received underpaid subsidy payments. We estimate that the authority may
             underpay more than $71,000 in subsidies over the next 12 months.

Conclusion



             The authority did not make timely rental payments to landlords, owing more than
             $185,000 in back payments and may underpay more than $71,000 in housing
             assistance if it does not correct its utility allowance schedule. This
             noncompliance occurred because the authority did not have adequate controls in
             place to ensure that it made timely inspections and rental payments and because it
             did not develop a utility allowance schedule that complied with HUD
             requirements.




 Table of Contents


                                               12
Recommendations



          We recommend that the Director of the Office of Public Housing

          2A.     Require the authority to implement internal controls including policies and
                  procedures that comply with HUD requirements for the timely
                  disbursement of $185,988 in rental payments owed to landlords.

          2B.     Require the authority to develop a utility allowance schedule that complies
                  with HUD requirements and appropriately recognizes the costs of tenant-
                  supplied appliances to ensure that $71,232 in program funds is properly
                  used for future payments.




 Table of Contents

                                           13
                             SCOPE AND METHODOLOGY

To accomplish our objectives, we did the following:

•    Reviewed applicable laws, regulations, and other HUD program requirements.

•    Reviewed the authority’s Section 8 policies, procedures, and administrative plan.

•    Interviewed HUD and authority management and staff.

•    Reviewed the authority’s latest independent public accountant report and HUD program
     monitoring reviews.

•    Obtained a download of the authority’s Section 8 units for the Housing Choice Voucher
     program as of April 18, 2007. 1

We statistically selected a sample of the authority’s program units to inspect from the 261 units
that passed its inspections conducted from January through April 2007. We used the U.S. Army
Audit Agency’s Statistical Sampling software to calculate the sample size. Based on a
confidence level of 90 percent, a precision level of 10 percent, and an assumed error rate of 50
percent, the software returned a statistical sample of 54 units. We used Microsoft Excel software
to select a random sample from the 261 units and to generate 46 additional sample units to be
used as replacements if needed.

We used statistical sampling because each sampling unit is selected without bias from the audit
population, thereby allowing the results to be projected to the population.

We inspected three of the replacement units because three of the primary units were no longer
being subsidized or participants were not available when scheduled for inspection. We selected
the replacement units in succession until the required 54 units were inspected.

Our sampling results indicated that 12 of the 39 failed units were in material noncompliance with
housing quality standards. We based our assessment on prior authority inspection reports,
tenants’ comments, and our observation and judgment of the condition of the unit during the
inspection. We judged units to be in material noncompliance with housing quality standards
because the units had preexisting conditions that threatened the living conditions of the tenants.

The authority’s April 2007 housing assistance payment register showed that the average monthly
housing assistance payment was $440. Projecting our sampling results of the 12 units that were
in material noncompliance with housing quality standards to the population indicates that 36
units or 13.9 percent of the population contained the attributes tested (would materially fail to
meet HUD’s housing quality standards). We are 90 percent confident that the frequency of
1
  To achieve our audit objectives, we relied in part on computer-processed data contained in the authority’s
database. Although we did not perform a detailed assessment of the reliability of the data, we did perform a
minimal level of testing and found the data to be adequate for our purposes.

    Table of Contents                                   14
occurrence of the attribute tested lies between 13.9 and 30.5 percent of the population. This
equates to an occurrence of between 36 and 79 units of the 261 units in the population.

         •   The lower limit is 13.9 percent x 261 units = 36 units in material noncompliance with
             housing quality standards.

         •   The point estimate is 22.2 percent x 261 units = 58 units in material noncompliance
             with housing quality standards.

         •   The upper limit is 30.5 percent x 261 units = 79 units in material noncompliance with
             housing quality standards.

Using the lower limit of the estimate of the number of units and the average monthly housing
assistance payment, we estimated that the authority will annually spend at least $190,080 (36
units x $440 average monthly payment x 12 months) for units that are in material noncompliance
with housing quality standards. This estimate is presented solely to demonstrate the annual
amount of Section 8 funds that could be put to better use on decent, safe, and sanitary housing if
the authority implements our recommendations. While these benefits would recur indefinitely,
we were conservative in our approach and only included the initial year in our estimate.

As of July 2007, authority records showed that it had suspended rental payments associated with
193 Section 8 units. We examined this information to determine the reason for the suspension of
the rental payments and its propriety. Our analyses indicated that in 177 of the 193 Section 8
units, the rental payments were suspended because the authority was unable to complete the
annual housing quality standards inspection and execute a new housing assistance contract with
the landlords. The authority owed these landlords more than $185,000 in rental payments. For
the remaining 16 Section 8 units, payments to landlords were suspended because the voucher
was canceled or the tenant had not fulfilled recertification requirements.

Authority records identified 423 tenants from the 1,421 active vouchers as of June 2007, who
provided their own appliances but did not receive an allowance for them. 2 We recalculated the
housing assistance for the 423 tenants to determine the possible effect on the Section 8 program
had the authority used a utility allowance for the tenant-provided appliances. To recalculate the
housing assistance, we used the utility allowance schedule from another housing agency that had
Section 8 units within the same geographical location as the authority. We used the utility
allowance that applied based on the appliances provided by the tenants. The appliance
allowance applied ranged between $9 and $15 based on the unit size. We accepted and did not
reverify the authority’s calculation for income and deductions for these tenants.

Our analyses indicated that 300 of the 423 tenants were underpaid monthly housing subsidies
totaling $5,936. Projecting the results, we estimate that the authority will underpay more than
$71,000 ($5,936 X 12) in subsidies over the next 12 months. This estimate is presented solely to
demonstrate the annual amount of Section 8 funds that could be put to better use if the authority
uses a utility allowance for the tenant-provided appliances.

2
 An authority official informed us that the number of tenants that did not receive an allowance could be higher
because not all of the housing counselors were making appropriate input to the system.

    Table of Contents                                   15
We conducted our fieldwork from January through July 2007 at the authority’s offices in Ponce,
Puerto Rico. Our audit period was from July 1, 2005, through March 31, 2007, but we expanded
our audit period as needed to accomplish our objectives.

We conducted the audit in accordance with generally accepted government auditing standards.




 Table of Contents

                                              16
                             INTERNAL CONTROLS

Internal control is an integral component of an organization’s management that provides
reasonable assurance that the following objectives are being achieved:

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting, and
   •   Compliance with applicable laws and regulations.

Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance.

 Relevant Internal Controls



              We determined the following internal controls were relevant to our audit
              objectives:

              •   Compliance with laws and regulations – Policies and procedures that
                  management has implemented to reasonably ensure that resource use is
                  consistent with laws and regulations.

              •   Safeguarding of resources – Policies, and procedures that management has
                  implemented to reasonably ensure that resources are safeguarded against
                  waste, loss, and misuse.

              We assessed the relevant controls identified above.

              A significant weakness exists if management controls do not provide reasonable
              assurance that the process for planning, organizing, directing, and controlling
              program operations will meet the organization’s objectives.

  Significant Weaknesses



              Based on our review, we believe the following items are significant weaknesses:

              •   The authority did not implement internal controls in place to ensure that
                  Section 8 units met housing quality standards (see finding 1).


  Table of Contents
                                               17
            •   The authority did not have adequate internal controls in place to make timely
                payments to program landlords and ensure that its utility allowance schedule
                was in accordance with HUD requirements (see finding 2).




Table of Contents



                                            18
                                     APPENDIXES

Appendix A

     SCHEDULE OF FUNDS TO BE PUT TO BETTER USE


                    Recommendation                             Funds to be put to
                        number                                   better use 1/

                           1B                                        $190,080
                           2A                                         185,988
                           2B                                          71,232

                          Total                                      $447,300


1/   Recommendations that funds be put to better use are estimates of amounts that could be
     used more efficiently if an OIG recommendation is implemented. This includes
     reductions in outlays, deobligation of funds, withdrawal of interest subsidy costs not
     incurred by implementing recommended improvements, avoidance of unnecessary
     expenditures noted in preaward reviews, and any other savings which are specifically
     identified. In these instances, if the authority implements recommendations 1B and 2A, it
     will cease to incur program costs for units that are not decent, safe, and sanitary and to
     unnecessarily retain rental payment to landlords and, instead, will expend those funds in
     accordance with HUD’s requirements. If the authority implements recommendation 2B,
     tenants will not make unnecessary payments, and assistance funds will be disbursed in
     accordance with program requirements. Once the authority successfully improves its
     controls, this will be a recurring benefit. Our estimates reflect only the initial year of this
     benefit.




Table of Contents

                                               19
Appendix B

                    AUDITEE COMMENTS




Table of Contents
                           20
Table of Contents


                    21
Table of Contents

                    22
Table of Contents

                    23
Appendix C
                                         CRITERIA


Federal Regulations at 24 [Code of Federal Regulations] 982.54(c)

The authority must administer the program in accordance with the authority’s administrative
plan.

Federal Regulations at 24 [Code of Federal Regulations] 982.401(a)(3)

All program housing must meet housing quality standards performance requirements, both at
commencement of assisted occupancy and throughout the assisted tenancy.

Federal Regulations at 24 [Code of Federal Regulations] 982.517

The authority must maintain a utility allowance schedule for all tenant-paid utilities (except
phone) and for the cost of tenant-supplied refrigerators and ranges. The utility allowance
schedule and the utility allowance for an individual family must include the utilities and services
that are necessary in the locality to provide housing that complies with the housing quality
standards.

Federal Regulations at 24 [Code of Federal Regulations] 985.3(e)

The sample for quality control inspections is to be drawn to represent a cross-section of
neighborhoods and the work of a cross-section of inspectors.

Authority’s Administrative Plan, Chapter 20

In order to maintain the appropriate quality standards for the section 8 program, the authority
will regularly (at least annually) review files and records to determine if the work documented in
the files or records conform to program requirements. Among the areas that shall have quality
control reviews are the following:

   A. The proper people were selected from the waiting list and their selection criteria were
      actually met by the applicants.
   B. The determination of rent reasonableness.
   C. Participants are paying the appropriate rent and their income and expenses were properly
      verified both upon admission and re-certification.
   D. Housing Quality Standard inspections were properly made.
   E. Housing Quality Standard deficiencies were properly followed up on and appropriate
      repairs were made in a timely manner.



Table of Contents

                                                24
Appendix D

    SCHEDULE OF UNITS IN MATERIAL NONCOMPLIANCE
         WITH HOUSING QUALITY STANDARDS


                                          Types of violations**
  File number          Sanitary              Food        Illumination and                Structure and
                       facilities         preparation        electrical                    materials
                                           and refuse
                                            disposal
   9001P-07                 3                  1                 3                               1
   0896V-00                 0                  0                 6                               2
   0838V-02                 0                  0                 3                               0
   1012V-03                 0                  0                 4                               0
   1328V-03                 2                   0                      3                         4
   1148v-07                 0                   1                      7                         1
   0288v-07                 0                   1                      4                         0
   0002V-05                 1                   1                      9                         2
   0885V-06                 0                   0                      8                         2
   0304V-90                 0                   0                      4                         2
   1191V-01                 1                   0                      2                         4
   0579V-04                 0                   0                      8                         1
**The table does not indicate all violations found in the unit. We only included the most frequently occurring
  and serious violations.




  Table of Contents

                                                        25
